LEGAL PRINTERS L.
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

July 22, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-930: CIC SERVICES, LLC V. INTERNAL REVENUE SERVICE, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of Amicus Curiae, Institute for Free Speech,
on July 22, 2020, I caused service to be made pursuant to Rule 29 on the following
counsel for the Petitioner and Respondents:
RESPONDENTS:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USD0J.gov

PETITIONER:
Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
617-227-0548
patrick@consovoymccarthy.com

This service was effected by depositing three copies of the Motion for Leave to
File and Brief of the Institute for Free Speech as Amicus Curiae in Support of
Petitioner in an official "first class mail" receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,

Jack Stiber7Esq7)
Principal

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commitsion sp. October 12, 2012

Sworn and subscribed before me this 22nd day of July 2020.

2-< vReL6-(Acn

